1a
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 19-50354
-----------------------------------------------------------------------

REAGAN NATIONAL ADVERTISING
RATED,

OF

AUSTIN, INCORPO-

Plaintiff–Appellant,
LAMAR ADVANTAGE OUTDOOR COMPANY, L.P., doing business as THE LAMAR COMPANIES,
Intervenor Plaintiff–Appellant,
versus
CITY OF AUSTIN,
Defendant–Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:17-CV-673
-----------------------------------------------------------------------

(Filed Aug. 25, 2020)
Before ELROD, SOUTHWICK, and HAYNES, Circuit Judges.
JENNIFER WALKER ELROD, Circuit Judge.
Reagan National Advertising of Austin and Lamar
Advantage Outdoor Company both filed applications to
digitize existing billboards. The City of Austin denied
the applications because its Sign Code does not allow

2a
the digitization of off-premises signs. Reagan and Lamar sued, arguing that the Sign Code’s distinction between on-premises and off-premises signs violates the
First Amendment. The Sign Code’s on-premises/
off-premises distinction is content based and therefore
subject to strict scrutiny. Because the Sign Code cannot
withstand this high bar, we REVERSE and REMAND.
I.
Plaintiffs-Appellants Reagan and Lamar are in
the business of outdoor advertising. Reagan and Lamar own and operate “off-premise[s]” signs, including
billboards that display both commercial and noncommercial messages.
In April and June 2017, Reagan submitted permit
applications to digitize its existing “off-premises” sign
structures. The City denied all the permit applications,
stating that “[t]hese applications cannot be approved
under Section 25-10-152 (Non-conforming Signs) because they would change the existing technology used
to convey off-premises commercial messages and increase the degree of nonconformity with current regulations relating to off-premises signs.” In June 2017,
Lamar submitted permit applications to digitize its
existing “off-premises” sign structures. The City denied
Lamar’s applications for the same reasons it denied
Reagan’s.
The City of Austin regulates signs in Chapter 2510 of the Austin City Code. The Sign Code defines an
“off-premise[s] sign” as “a sign advertising a business,

3a
person, activity, goods, products, or services not located
on the site where the sign is installed, or that directs
persons to any location not on that site.” The Sign Code
does not expressly define “on-premise[s] sign,” but it
does use the term “on-premise[s] sign” in some of its
provisions. The Sign Code allows new on-premises
signs to be built, but it does not allow new off-premises
signs to be built. A “nonconforming sign” is defined as
“a sign that was lawfully installed at its current location but does not comply with the requirements of [the
Sign Code.]” Preexisting off-premises signs are deemed
“nonconforming signs.”
Persons are permitted to “continue or maintain
nonconforming signs at [their] existing location,” and
can even change the face of the nonconforming sign, as
long as the change does not “increase the degree of the
existing nonconformity.” However, persons are not permitted to “change the method or technology used to
convey a message” on a nonconforming sign. The Sign
Code permits “on-premise[s] signs” to be “electronically
controlled changeable copy signs” (i.e., “digital signs”).
Consequently, on-premises non-digital signs can be
digitized, but off-premises non-digital signs cannot.
The City’s stated general purpose in adopting the Sign
Code is to protect the aesthetic value of the city and to
protect public safety.
In June 2017, Reagan sued the City in state court
alleging the Sign Code was unconstitutional. Specifically, it alleged that the distinction between the digitalization of on-premises and off-premises signs was a

4a
violation of the First Amendment. In July 2017, the
City removed the case to federal court.
In August 2017, the City amended the Sign Code.
The amended Sign Code defines “off-premise[s] sign”
as “a sign that displays any message directing attention to a business, product, service, profession, commodity, activity, event, person, institution, or other
commercial message which is generally conducted,
sold, manufactured, produced, offered, or occurs elsewhere than on the premises where the sign is located,”
and it expressly defines an “on-premise[s] sign” as “a
sign that is not an off-premise[s] sign.”
The amended Sign Code also includes a new section, “§ 25-10-2 – Noncommercial Message Substitution,” comprised of the following provisions:
(A) Signs containing noncommercial speech
are permitted anywhere that signs regulated
by this chapter are permitted, subject to the
same regulations applicable to the type of sign
used to display the noncommercial message.
No provision of this chapter prohibits an ideological, political, or other noncommercial
message on a sign otherwise allowed and lawfully displayed under this chapter.
(B) The owner of any sign allowed and lawfully displayed under this chapter may substitute noncommercial speech in lieu of any
other commercial or noncommercial speech,
with no permit or other approval required
from the City solely for the substitution of
copy.

5a
(C) This section does not authorize the substitution of an off-premise[s] commercial message in place of a noncommercial or onpremise[s] commercial message.
The amendments do not change the prohibition on
changing the method or technology used to convey
messages (e.g., digitalization) for nonconforming signs,
Section 25-10-152, or the definition of “nonconforming
sign.”
In October 2017, Lamar joined the case as an intervenor plaintiff. In their amended complaints,
Reagan and Lamar asserted nearly identical causes of
action and requests for relief. They sought declaratory
judgments that the Sign Code’s distinction between
on-premises and off-premises signs was an unconstitutional content-based speech restriction, that the Sign
Code was invalid and unenforceable, and that Reagan
and Lamar should be allowed to digitize their signs
without permits. Reagan sought a declaratory judgment that the Sign Code was invalid as applied to
Reagan, but Lamar did not seek this specific relief.
After a bench trial, the district court denied
Reagan and Lamar’s requests for declaratory judgment, held that the Sign Code was content neutral and
satisfied intermediate scrutiny, and entered judgment
for the City. Reagan and Lamar appeal.
II.
The first issue we must address is mootness. In
August 2017, the City amended the Sign Code. The

6a
impact of the amendment was two-fold. First, it
amended the definition of “off-premise[s] sign” and expressly defined “on-premise[s] sign.” Second, it included a new section on “noncommercial message
substitution.” The amendment did not alter the prohibition on changing the method or technology used to
convey messages for nonconforming signs (e.g., digitalization) or the definition of a nonconforming sign.
The district court sua sponte addressed the question of mootness because the Sign Code amendments
occurred after the denial of Reagan and Lamar’s applications. The district court reasoned that amendments
to a challenged law are not enough to moot an underlying claim unless the law has been sufficiently altered
so as to present a substantially different controversy.
See Ne. Fla. Chapter of Associated Gen. Contractors
of Am. v. City of Jacksonville, 508 U.S. 656, 662 & n.3
(1993).
The district court determined that the amendments to the Sign Code did not present a substantially
different controversy because they: (1) did not alter the
prohibition against new digital sign-faces for billboards; and (2) did not change Reagan and Lamar’s
claim that the application of the Sign Code required an
enforcer to read the sign to determine whether it was
“on-premises” or “off-premises,” and thus, in Reagan
and Lamar’s view, the post-amendment Sign Code was
still content based.
Reagan and Lamar agree with the district court
that their case is not moot. However, they disagree on

7a
the why. Reagan and Lamar sought to update grandfathered signs, and they filed their applications to do so
in April 2017 and June 2017. At that time, the prior
version of the Sign Code was still in effect and Reagan
and Lamar’s applications were denied under the prior
version of the Code. Therefore, they assert that under
Texas law, they have the right to have their applications determined based on the regulations in effect at
the time their applications were filed. Tex. Loc. Gov’t
Code Ann. § 245002(a)(1); see Reagan Nat. Advert. of
Austin, Inc. v. City of Cedar Park, 387 F. Supp. 3d 703,
706 n.3 (W.D. Tex. 2019) (“Texas law requires the permit applications be evaluated under the law as it existed at the time they were submitted, rather than
under the new, revised sign code.”).
We agree with Reagan and Lamar; the case is not
moot. As Reagan and Lamar applied for permits under
the old ordinance, we evaluate the constitutionality of
the previous version of the ordinance.1
III.
There are two substantive issues we must address
to determine what standard of scrutiny applies to Austin’s Sign Code. First, whether the Sign Code’s distinction between on-premises and off-premises signs is
content based and second, whether the Sign Code is a
regulation of commercial speech and therefore subject
to intermediate scrutiny under Central Hudson Gas &
1

We therefore do not need to address the amended ordinance’s constitutionality.

8a
Electric Corp. v. Public Service Commission, 447 U.S.
557, 561 (1980). We hold that because the Sign Code is
a content-based regulation that is not subject to the
commercial speech exception, strict scrutiny applies,
and the City has not satisfied that standard. We walk
through this analysis below.
A.
We turn first to whether the Sign Code’s distinction between “on-premises” and “off-premises” signs is
a content-based or content-neutral distinction. If the
distinction is content based, then it is “presumptively
unconstitutional” and subject to strict scrutiny. Reed v.
Town of Gilbert, 576 U.S. 155, 163 (2015). If the Sign
Code is content neutral, then it is subject to intermediate scrutiny. Id. Because an off-premises sign is determined by its communicative content, we hold that
the Sign Code’s distinction between on-premises and
off-premises signs is content based.
In 2015, the Supreme Court decided Reed v. Town
of Gilbert, which clarified the law surrounding contentbased speech regulations. Justice Thomas, writing for
the majority, explained that a law is content based
when it “target[s] speech based on its communicative
content,” or in other words, when it “applies to particular speech because of the topic discussed or the idea
or message expressed. Id. To determine whether a law
is content based, Reed states that a court must “consider whether a regulation of speech ‘on its face’ draws
distinctions based on the message a speaker conveys.”

9a
Id. It may be the case that a distinction “defining regulated speech by its function or purpose” is drawn
based on the message the speaker conveys and is thus
facially content based and subject to strict scrutiny. Id.
Reed held that if a law is facially content based, it
is “subject to strict scrutiny regardless of the government’s benign motive, content-neutral justification, or
lack of ‘animus toward the ideas contained’ in the
regulated speech.” Id. at 165 (quoting Cincinnati v.
Discovery Network, Inc., 507 U.S. 410, 429 (1993)). For
this reason, a court must consider whether a law is facially content based or content neutral “before turning
to the law’s justification or purpose.” Id. at 166.
While Reed did not profess to be creating new First
Amendment law, federal courts have recognized that
Reed constituted “a drastic change in First Amendment jurisprudence.” Free Speech Coal., Inc. v. Att’y
Gen. U.S., 825 F.3d 149, 160 n.7 (3d Cir. 2016); see also
Wollschlaeger v. Governor of Florida, 848 F.3d 1293,
1332–33 (11th Cir. 2017) (en banc) (Tjoflat, J., dissenting) (“Reed announced a sea change in the traditional
test for content neutrality under the First Amendment,
and, in the process, expanded the number of previously
permissible regulations now presumptively invalid under strict scrutiny.”); Cahaly v. Larosa, 796 F.3d 399,
405 (4th Cir. 2015) (“Reed has made clear that, at the
first step, the government’s justification or purpose in
enacting the law is irrelevant.”).
Given this “sea change,” other circuits have had to
assess their pre-Reed case law. The Third and Fourth

10a
Circuits, recognizing that Reed conflicted with their
prior precedent, both abrogated certain pre-Reed cases.
See Free Speech Coalition, 825 F.3d at 149 (explaining
that Reed “requires us to take another look at our holding that intermediate scrutiny applies to the First
Amendment analysis”); Cahaly, 796 F.3d at 405 (“This
formulation conflicts with, and therefore abrogates,
our previous descriptions of content neutrality. . . .”).
The Sixth and Seventh Circuits have also acknowledged the impact of Reed in cases before them on rehearing. See Wagner v. City of Garfield Heights, 675 F.
App’x 599 (6th Cir. 2017) (revisiting prior decision on
remand from the Supreme Court after Reed); Norton v.
City of Springfield, 806 F.3d 411 (7th Cir. 2015) (reversing a prior holding, on petition for rehearing, based on
Reed).
This circuit has yet to take inventory of our preReed cases.2 We do so now. We had previously held that
“[a] statute that appears content-based on its face may
still be deemed content-neutral if it is justified without
regard to the content of the speech. . . . Content-neutrality has continued to be defined by the justification
of the law or regulation, and this court has consistently
employed that test.” Asgeirsson v. Abbott, 696 F.3d 454,
459–60 (5th Cir. 2012) (citing Ward v. Rock Against
Racism, 491 U.S. 781, 791 (1989) (“The principal
2

This is not the first instance since 2015 that this court has
cited to Reed. Several of our cases have cited Reed, but not for the
direct proposition at issue here. See Seals v. McBee, 898 F.3d 587,
595 (5th Cir. 2018); United States v. Petras, 879 F.3d 155, 166–67
(5th Cir. 2018); Def. Distributed v. U.S. Dep’t of State, 838 F.3d
451, 468–69 (5th Cir. 2016) (Jones, J., dissenting).

11a
inquiry in determining content neutrality, in speech
cases generally and in time, place, or manner cases in
particular, is whether the government has adopted a
regulation of speech because of disagreement with the
message it conveys. The government’s purpose is the
controlling consideration.” (citation omitted))). The
Asgeirsson case predates Reed and cites to Ward, which
the Supreme Court addressed in Reed.
While the Supreme Court did not overturn Ward
in Reed, it did explain that the Ninth Circuit, who had
interpreted Ward just as this court had in Asgeirsson,”
misunderst[ood] [the] decision in Ward as suggesting
that a government’s purpose is relevant even when a
law is content based on its face.” Reed, 576 U.S. at 166.
The Supreme Court explained: “That is incorrect. Ward
had nothing to say about facially content-based restrictions because it involved a facially content-neutral
ban. . . .” Id. at 166–67. It went on to clarify the correct
law:
Our precedents have . . . recognized a separate and additional category of laws that,
though facially content neutral, will be considered content-based regulations of speech:
laws that cannot be “justified without reference to the content of the regulated speech,”
or that were adopted by the government “because of disagreement with the message [the
speech] conveys.” Those laws, like those that
are content based on their face, must also satisfy strict scrutiny.

12a
Id. at 164 (alteration in original) (quoting Ward, 491
U.S. at 791). But, if a law is content based on its face,
then it is “subject to strict scrutiny regardless of the
government’s . . . content-neutral justification.” Id. at
165.
In the wake of Reed, our Asgeirsson precedent
must be revisited. Like the Ninth Circuit, our pre-Reed
case law ascribed to an incorrect understanding of
the test for content-neutrality given in Ward. See
Asgeirsson, 696 F.3d at 459–60. Therefore, Asgeirsson
and any portion of a case that relies on Asgeirsson’s
content-neutrality analysis must be abrogated.3
Having clarified our case law, we now return to the
case at bar and consider whether the challenged ordinance is content neutral or content based. Reed serves
as our guide.
All nine Justices concurred in the judgment in
Reed, six joining fully in the majority opinion and three
concurring in the judgment only and proffering instead
that intermediate scrutiny should have applied. Reed,
576 U.S. at 179 (Kagan, J., concurring in the judgment).
3

See, e.g., Palmer v. Waxahachie Indep. Sch. Dist., 579 F.3d
502, 510 (5th Cir. 2009); Pruett v. Harris Cty. Bail Bond Bd., 499
F.3d 403, 409 n.5 (5th Cir. 2007); Illusions-Dall. Private Club, Inc.
v. Steen, 482 F.3d 299, 308 (5th Cir. 2007); Fantasy Ranch Inc. v.
City of Arlington, 459 F.3d 546, 554–56 (5th Cir. 2006); Brazos
Valley Coal. for Lift, Inc. v. City of Bryan, 421 F.3d 314, 326–27
(5th Cir. 2005); de la 0 v. Hous. Auth. of City of El Paso, 417 F.3d
495, 503 (5th Cir. 2005); N.W. Enters. Inc. v. City of Houston, 352
F.3d 162, 174 (5th Cir. 2003); Encore Videos, Inc. v. City of San
Antonio, 330 F.3d 288, 292 (5th Cir. 2003); Horton v. City of Houston, 179 F.3d 188, 193 (5th Cir. 1999).

13a
Justice Alito, joined by Justices Kennedy and Sotomayor, all of whom concurred fully in the majority
opinion, wrote a “few words of further explanation” in
which he cautioned against the potential breadth of
the majority opinion by discussing certain types of regulations that would still be content neutral under the
opinion’s holding. Id. at 174 (Alito, J., concurring). Justice Alito specifically notes, without further explanation, that “[r]ules distinguishing between on-premises
and off-premises signs” should not be considered content based. Id. at 175 (Alito, J., concurring).
The City cites to Justice Alito’s concurrence as
support for its position that the type of regulation here
is not content based and is simply exempted from
Reed. But we do not agree that Justice Alito’s concurrence supports the City. Like the Sixth Circuit, we
agree[ ] it is possible for a restriction that distinguishes between off-and on-premises signs
to be content-neutral. For example, a regulation that defines an off-premise[s] sign as any
sign within 500 feet of a building is contentneutral. But if the off-premises/on-premises
distinction hinges on the content of the message, it is not a content-neutral restriction. A
contrary finding would read Justice Alito’s
concurrence as disagreeing with the majority
in Reed. The Court declines such a reading.
Justice Alito’s exemplary list of “some rules
that would not be content-based” ought to be
read in harmony with the majority’s holding.
[ ] Read in harmony with the majority,
Justice Alito’s concurrence enumerates an

14a
‘on-premises/off-premises’ distinction that is
not defined by the sign’s content, but by the
sign’s physical location or other contentneutral factor.
Thomas v. Bright, 937 F.3d 721, 732–33 (6th Cir. 2019)
(Batchelder, J.) (alteration in original) (quoting
Thomas v. Schroer, 248 F. Supp. 3d 868, 879 (W.D.
Tenn. 2017)); see also Note, Free Speech Doctrine after
Reed v. Town of Gilbert, 129 Harv. L. Rev. 1981, 1993
(2016) (explaining the potential “inconsistency between the Reed majority’s far-ranging reasoning and
Justice Alito’s attempt to identify exceptions”). The
City’s Sign Code must be evaluated under the clear
rule set forth by the Reed majority.
Austin’s Sign Code permits on-premises sign owners to install digital sign faces that allow the copy to be
changed electronically, while off-premises sign owners
are forbidden from using this technology. To determine
whether a sign is on-premises or off-premises, one
must read the sign and ask: does it advertise “a business, person, activity, goods, products, or services not
located on the site where the sign is installed, or that
directs persons to any location not on that site"? The
City claims that this is not a regulation over a sign’s
content; rather, it is a time, place, or manner restriction
based on the location of signs. But “whether the Act
limits on-premises signs to only certain messages or
limits certain messages from on-premises locations,
the limitation depends on the content of the message.”
Thomas, 937 F.3d at 731.

15a
The Sixth Circuit recently decided a nearly identical question. In Thomas v. Bright, the court considered
an “on-premises exception allow[ing] a property owner
to avoid the permitting process and proceed to post a
sign without any permit, so long as the sign is ‘advertising activities conducted on the property on which
[the sign is] located.’ ” Id. at 730 (second alteration in
original) (quoting Tenn. Code Ann. § 54-21-103(3)). The
enabling regulation specified that the sign had to be
“located on the same premises as the activity” and
“have as its purpose the identification of the activity,
products, or services offered on that same premises.”
Id. (alterations omitted) (quoting Tenn. Comp. R. &
Regs. 1680-02-03-.06)).
The Sixth Circuit explained that to determine
whether the on-premises exception applied, the government official had to read the message written on
the sign and determine its meaning, function, or purpose. Id. It wrote: “Some facial distinctions based on a
message are obvious, . . . and others are more subtle,
defining regulated speech by its function or purpose.”
Id. (quoting Reed, 576 U.S. at 163). Consequently, the
Sixth Circuit held the challenged regulation “contains
a non-severable regulation of speech based on the content of the message.” Id. at 733.
The D.C. Circuit has interpreted Reed differently.
See Act Now to Stop War and End Racism Coal. & Muslim Am. Soc’y Freedom Found. v. District of Columbia,
846 F.3d 391, 404 (D.C. Cir. 2017), cert. denied, 138
S. Ct. 334 (2017). In Act Now, the D.C. Circuit concluded that a distinction between event-related signs

16a
and those not related to an event was content neutral
because it was “not a ‘regulation of speech,’ but a ‘regulation of the places where some speech may occur.’ ”
846 F.3d at 403 (quoting Hill v. Colorado, 530 U.S. 703,
719 (2000)).
The D.C. Circuit reasoned that even though government “officials may look at what a poster says to
determine whether it is ‘event-related,’ ” that did “not
render the District’s [regulation] content-based,” and
“the fact that a [government] official might read a date
and place on a sign to determine that it relates to a
bygone demonstration, school auction, or church fundraiser does not make the [regulation] content based.”
Id. at 404. “[S]uch ‘cursory examination’ did not render
the statute facially content based.” Id. (quoting Hill,
530 U.S. at 720).
We do not see, as the D.C. Circuit does, an exception for mere “cursory” inquiries into content in the
holding of Reed. But even if we did, the sign ordinance
here does not depend on merely a cursory inquiry into
content. The City of Austin advances this “cursory” test
as well, but the distinction does not hold water. It takes
no more than a cursory reading to figure out if a sign
supports Candidate A or Candidate B. But a law allowing advertising for Candidate A and not Candidate B
would surely be content based. See Rosenberger v. Rector & Visitors of Univ. of Va., 515 U.S. 819, 829 (1995)
(explaining that viewpoint discrimination is a more
“blatant” and “egregious” form of content-based discrimination).

17a
Determining whether a sign is on-premises or offpremises is not a “cursory” inquiry under the circumstances here. At oral argument, the panel posed numerous hypotheticals to the City asking whether a
certain sign would be on-premises or off-premises:
•

Could Sally have a digital sign in her front
yard that says “Sally makes quilts here and
sells them at 3200 Main Street”?

•

Could Barbara and Tom maintain a digital
sign in their yard that says “We love hamburgers” that contained the logo and address
to a Whataburger location two miles away?

•

Could the local school have an electronic message board that rotated between messages
that said “Finals Start Tuesday” and “Eat at
the Main Street Café on Friday to Support the
Boosters”?

•

Could Sarah place a digital sign in her yard
that said “Vote for Kathy” if Kathy did not live
at Sarah’s house?

•

How could one determine whether a digital
billboard that said “God Loves You” is onpremises or off-premises?

Counsel for the City struggled to answer whether
these hypothetical signs were on-premises or offpremises. And if prepared counsel cannot quickly assess whether these signs are permitted under the Sign
Code, the inquiry is not a mere cursory one. A reader
must ask: who is the speaker and what is the speaker
saying? These are both hallmarks of a content-based

18a
inquiry. See Reed, 576 U.S. at 166–69. The fact that
the reader must also ask, where is this sign located?—
a content-neutral inquiry—does not save the regulation.
Reed reasoned that a distinction can be facially
content based if it defines regulated speech by its function or purpose. Here, the Sign Code defines “off-premises” signs by their purpose: advertising or directing
attention to a business, product, activity, institution,
etc., not located at the same location as the sign. The
City clams that it is not content based because it does
not target one specific viewpoint or message, but the
Sign Code does not need to discriminate against a specific viewpoint to be “content based.”
As explained in Reed, “A regulation that targets a
sign because it conveys an idea about a specific event
is no less content based than a regulation that targets
a sign because it conveys some other idea.” 576 U.S. at
171. Hence why the ordinance at issue in Reed was
deemed content based; it “single[d] out signs bearing a
particular message: the time and location of a specific
event.” Id.
Our sister circuits have recognized this important
principle. In addition to the Sixth Circuit decision discussed above, consider Norton v. City of Springfield, a
decision in which the Seventh Circuit struck down an
anti-panhandling ordinance that prohibited asking for
immediate donations but allowed requests for future
donations. 806 F.3d at 412. Relying on Reed, the Seventh Circuit reasoned that the ordinance was content

19a
based. Id. at 413. It prohibited speech that said “Donate Now!” but allowed speech that said “Donate
Later!” What time was to the anti-panhandling ordinance in Norton, location is to Austin’s on-premises/offpremises distinction. Austin’s Sign Code treats a sign
that says “Stop Here!” differently than a sign that says
“Stop Over There!”
We take Reed at its word. Recall that in Reed, the
sign code required town officials to examine a sign to
determine its purpose, and “[t]hat obvious contentbased inquiry does not evade strict scrutiny review
simply because an event . . . is involved.” 576 U.S. at
170.
Or recall Thomas’s faithful application of Reed:
The fact that a government official had to read a sign’s
message to determine the sign’s purpose was enough
to subject the law to strict scrutiny even though the
sign’s location was also involved. Thomas, 937 F.3d at
730–31 (explaining that the fact that Tennessee’s law
involved location did not make it content neutral because “the Supreme Court has repeatedly held that
laws combining content-based and content-neutral factors are nonetheless content-based”). So here too. To
determine whether a sign is “off-premises” and therefore unable to be digitized, government officials must
read it. This is an “obvious content-based inquiry,” and
it “does not evade strict scrutiny” simply because a location is involved.
“[A]bove all else, the First Amendment means
that government has no power to restrict expression

20a
because of its message, its ideas, its subject matter, or
its content.” Police Dep’t of Chicago v. Mosley, 408 U.S.
92, 95 (1972). “Content-based regulations of speech
‘pose the inherent risk that the Government seeks not
to advance a legitimate regulatory goal, but to suppress unpopular ideas or information or manipulate
the public debate through coercion rather than persuasion.’ ” Wollschlaeger, 848 F.3d at 1327 (Pryor, J., concurring) (quoting Turner Broad. Sys., Inc. v. FCC, 512
U.S. 622, 641 (1994)). “The power of the state must not
be used to ‘drive certain ideas or viewpoints from the
marketplace,’ even if a majority of the people might
like to see a particular idea defeated.” Id. (Pryor, J.,
concurring) (quoting Simon & Schuster, Inc. v. Members of N.Y. State Crime Victims Bd., 502 U.S. 105, 116
(1991)).
The rule in Reed is broad, but this is not an unforeseen consequence. The separate opinions in Reed
warned of just how broadly the rule could be interpreted. Justice Kagan’s concurrence in Reed highlights
the majority opinion’s breadth by pointing out that the
Reed majority opinion subjects signs advertising a onetime event to strict scrutiny because “a law with an exception for such signs ‘singles out specific subject matter for differential treatment.’ ” 576 U.S. at 181 n.1
(Kagan, J., concurring in the judgment) (quoting 576
U.S. at 156, 169). Justice Breyer wrote that the Reed
majority opinion cannot “avoid the application of strict
scrutiny to all sorts of justifiable governmental regulations.” Id. at 178 (Breyer, J., concurring in the judgment).

21a
Indeed, the Reed majority itself acknowledged
that “laws that might seem ‘entirely reasonable’ will
sometimes be ‘struck down because of their contentbased nature.’ ” Id. at 165 (quoting City of Ladue v.
Gilleo, 512 U.S. 43, 60 (1994) (O’Connor, J., concurring)). As Justice Thomas explained, “[i]nnocent motives do not eliminate the danger of censorship
presented by a facially content-based statute, as future
government officials may one day wield such statutes
to suppress disfavored speech. That is why the First
Amendment expressly targets the operation of the
laws—i.e., the ‘abridg[ement] of speech’—rather than
merely the motives of those who enacted them.” Id. at
167 (alteration in original) (quoting U.S. Const. amend.
I).
For the foregoing reasons, we hold that Austin’s
on-premises/off-premises distinction is content based.
B.
That still leaves the question of whether the Sign
Code is regulating commercial speech. “Commercial
speech is ‘[e]xpression related solely to the economic
interests of the speaker and its audience.’ ” Express Oil
Change, L.L.C. v. Miss. Bd. of Licensure for Prof ’l
Eng’rs & Surveyors, 916 F.3d 483, 487 n.2 (5th Cir.
2019) (alteration in original) (quoting Central Hudson,
447 U.S. at 561). Prior to Reed, “commercial speech enjoy[ed] lesser, intermediate-scrutiny constitutional
protection.” RTM Media, L.L.C. v. City of Houston, 584
F.3d 220, 224 (5th Cir. 2009), cert. denied, 130 U.S. 644

22a
(2010); see also Metromedia, Inc. v. City of San Diego,
453 U.S. 490, 507 (1981). We need not decide the issue
of whether Reed changes the analysis of commercial
speech unless Austin’s Sign Code regulates only commercial speech.4
So, does Austin’s Sign Code regulate commercial
speech? Commercial speech is protected by the First
Amendment, Va. State Bd. of Pharmacy v. Va. Citizens
Consumer Council, Inc., 425 U.S. 748, 761–62 (1976),
but Central Hudson dictates that commercial speech is
given “lesser protection . . . than . . . other constitutionally guaranteed expression,” 447 U.S. at 563. This is
because commercial speech “serves the economic interest of the speaker.” Id. at 561. While the Supreme
Court has “rejected the . . . view that government has
complete power to suppress or regulate commercial
speech,” id. at 562, there is no “constitutional objection
to the suppression of commercial messages that do not
accurately inform the public about lawful activity,” id.
at 563.

4

The district court concluded that the lesser scrutiny outlined in Central Hudson and Metromedia applied because the
Sign Code’s “on/off-premises distinction is content neutral.” This
was error. Assuming Reed has not altered the law on commercial
speech, courts do not apply the Central Hudson test to “content
neutral” regulations, but to commercial speech regulations—regardless of whether they regulate content. Therefore, the district
court erred in applying Central Hudson’s test based on the law’s
content neutrality—both because this is a misapplication of Central Hudson and because, as we establish above, the law is not
content neutral.

23a
The parties do not dispute that the Sign Code,
prior to the amendments, applied to both commercial
and noncommercial speech. The relevant provisions
made no exceptions or carve outs to the applicability of
the law based on whether the speech involved commercial or noncommercial messages. Notwithstanding
the law’s general applicability, the City argues that
because the Sign Code applies to billboards, which primarily share commercial messages, and only intermittent noncommercial messages are affected, the
ordinance should be evaluated in the realm of commercial speech. But the Sign Code does not regulate noncommercial speech only intermittently. The regulation
applies to any noncommercial message “off-premises”
whether it is displayed for ten minutes or ten years.
The Eleventh Circuit dealt with a similar question
in Solantic, LLC v. City of Neptune Beach, 410 F.3d
1250, 1269 n.15 (11th Cir. 2005). There, a city ordinance regulating signs applied to both commercial and
noncommercial messages. The City argued that it
nonetheless should be reviewed under the Central
Hudson test because it regulates primarily commercial
speech. Id. The Eleventh Circuit reasoned that because
the sign code at issue did not regulate commercial
speech as such, but rather applied “without distinction
to signs bearing commercial and noncommercial messages,” the Central Hudson test had no application and
strict scrutiny applied. Id.5

5

The City relies on International Outdoor, Inc. v. City of
Troy, No. 17-10335, 2017 WL 2831702 (E.D. Mich. June 30, 2017),

24a
Indeed, the Supreme Court has warned against
parsing speech in order to apply the proper test. Where
“the component parts of a single speech are inextricably intertwined, we cannot parcel out the speech, applying one test to one phrase and another test to
another phrase. Such an endeavor would be both artificial and impractical. Therefore, we apply our test for
fully protected expression.” Riley, 487 U.S. at 796.
This logic also applies to parsing regulations. A
regulation covering billboards is not exempt from strict
for the proposition that intermittent noncommercial speech does
not take a regulation out of the realm of commercial speech. We
find City of Troy both factually distinguishable and unpersuasive.
First, City of Troy evaluated a variance, which meant it was evaluating the specific sign at issue: an electronic billboard that had
32 rotating messages, 31 of which were commercial. The Michigan
district court determined that this was “intertwined” speech. Id.
at *5. Because the billboards were going to carry mostly commercial messages, the court concluded that this “intertwined” speech
was essentially commercial in nature. Id. (citing Riley v. Nat.
Fed’n of the Blind of N.C., Inc., 487 U.S. 781, 796 (1988); Adventure Commc’ns, Inc. v. Ky. Registry of Election Fin., 191 F.3d 429,
441 (4th Cir. 1999)).
We do not speak on whether the billboard at issue in City of
Troy was a proper example of “intertwined” speech, but do point
out that the speech at issue (one out of 32 billboards sharing a
commercial message) is considerably different than the two cases
the district court relied on for support—Kentucky Registry and
Riley. The sort of “intertwined” speech addressed in the cited
cases did not involve the kind of discrete messages carried on billboards, where one speaker’s message may be noncommercial and
another speaker’s message commercial. Here, the potential noncommercial messages are not intertwined with other commercial
speech. Austin’s regulation applies fully to a billboard that seeks
to display only noncommercial messages on an off-premises billboard.

25a
scrutiny simply because most billboards display commercial messages. Here, the regulation applies with
equal force to both commercial and noncommercial
messages. For that reason, strict scrutiny applies. See
Solantic, 410 F.3d at 1269 n.15 (explaining that because the sign code applies without distinction to signs
bearing commercial and noncommercial messages, the
Central Hudson test does not apply); Southlake Prop.
Assocs., Ltd. v. City of Morrow, 112 F. 3d 1114, 1116–
17 (11th Cir. 1997) (holding that to the extent that a
sign ordinance regulates noncommercial speech, it
must withstand a heightened level of scrutiny); Cedar
Park, 387 F. Supp. 3d at 712–14 (noting that a law that
applies to both commercial and noncommercial speech
must survive strict scrutiny).
C.
Having determined that the Sign Code is content
based and that the commercial-speech exception does
not apply, we assess the relevant provisions of the preamendment Sign Code under strict scrutiny. Under
that standard, “the Government [must] prove that the
restriction furthers a compelling interest and is narrowly tailored to achieve that interest.” Reed, 576 U.S.
at 171. Strict scrutiny is, understandably, a hard
standard to meet. See Williams-Yulee v. Florida Bar,
575 U.S. 433, 444 (2015); Reed, 576 U.S. at 176 (Breyer,
J., concurring) (explaining that strict scrutiny leads to
almost certain legal condemnation). This is not one of
those cases.

26a
The City relied on the stated purpose of the Sign
Code—to “protect the aesthetic value of the City and to
protect public safety”—for justification of the ordinance. These were the same two justifications relied
upon by the municipality in Reed. 576 U.S. at 171. As
the Supreme Court held in Reed, we hold here that
these purported justifications do not satisfy strict scrutiny. See id. at 172.
The City has not provided any argument that onpremises signs are a greater eyesore than off-premises
signs, and the City cannot “plac[e] strict limits on” offpremises signs, as “necessary to beautify the [City]
while at the same time allowing” on-premises signs of
the same type. Id. The City has also failed to support
its second stated justification: that off-premises digital
signs pose a greater risk to public safety than on-premises digital signs. It has provided no evidence that onpremises signs pose less of a risk to public safety than
off-premises signs.
Therefore, like the ordinance in Reed, the ordinance here is underinclusive. See id. at 171. A “law cannot be regarded as protecting an interest of the highest
order, and thus as justifying a restriction upon truthful
speech, when it leaves appreciable damage to that supposedly vital interest unprohibited.” Republican Party
of Minn. v. White, 536 U.S. 765, 780 (2002) (quoting
Florida Star v. B.J.F., 491 U.S. 524, 541–42 (1989)
(Scalia, J., concurring in the judgment)). The City has
failed to show that this ordinance is narrowly tailored
to serve a compelling government interest. It therefore
fails strict scrutiny.

27a
IV.
We hold that the on-premises/off-premises distinction is content based and fails under strict scrutiny.
It thus runs afoul of the First Amendment. We REVERSE the district court’s decision and REMAND to
the district court for further proceedings consistent
with this opinion.

28a
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 19-50354
-----------------------------------------------------------------------

REAGAN NATIONAL ADVERTISING

OF

AUSTIN, INCORPO-

RATED,

Plaintiff–Appellant,
LAMAR ADVANTAGE OUTDOOR COMPANY, L.P., doing business as THE LAMAR COMPANIES,
Intervenor Plaintiff–Appellant,
versus
CITY OF AUSTIN,
Defendant–Appellee.
--------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:17-CV-673
--------------------------------------------------------------------------------------------------------

(Filed Aug. 25, 2020)
Before ELROD, SOUTHWICK, and HAYNES, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.

29a
IT IS ORDERED and ADJUDGED that the judgment of the District Court is REVERSED, and the
cause is REMANDED to the District Court for further
proceedings in accordance with the opinion of this
Court.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

30a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
REAGAN NATIONAL
ADVERTISING OF
AUSTIN, INC., and
LAMAR ADVANTAGE
HOLDING COMPANY,
Plaintiffs,
v.
CITY OF AUSTIN,
Defendant.

§
§
§
§
§
§
§
§
§
§
§

1:17-CV-673-RP

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(Filed Mar. 27, 2019)
By ordinance, the City of Austin prohibits new digital signs for off-premises signs, but permits them for
on-premises signs. The plaintiffs own and operate billboards. They contend that the City’s different rules for
on- and off-premises signs is an unconstitutional restriction of speech under the First Amendment.
At the parties’ request, the Court held a bench
trial on this question on June 26, 2018. The parties
submitted pretrial briefing, (Pls.’ Br., Dkt. 25; City Br.,
Dkt. 30; Pls.’ Resp., Dkt. 34), joint stipulated facts, (Dkt.
26), and proposed findings and fact and conclusions of
law, (Dkts. 27, 29). Both parties then submitted posttrial briefing. (Dkts. 37, 38, 40, 42). Having considered

31a
parties’ submissions, the evidence and argument at
trial, and the applicable law, the Court now enters the
following findings of fact and conclusions of law.1
I.

BACKGROUND

Plaintiff Reagan National Advertising of Austin,
Inc. (“Reagan”) filed 50 permit applications to install
digital sign-faces on billboards throughout the Austin
area. (Am. Stip. Facts, Dkt. 26, at 3). Defendant City of
Austin (“the City”) denied the applications, citing city
code (“the Sign Code”) that prohibits the installation of
digital faces on “off-premise” signs. (Id.). Shortly after,
Lamar Advantage Holding Company (“Lamar”) filed
23 permit applications, which the City denied on same
grounds. (Lamar Am. Compl., Dkt. 13).
Reagan filed suit in Travis County and the City
removed to federal court. (Not. Removal, Dkt. 1). Lamar joined the case as an intervenor plaintiff. (Order
on Mot. Intervene, Dkt. 9). Reagan and Lamar then
filed amended complaints, which assert identical causes
of action and requests for relief. (Reagan Am. Compl.,
Dkt. 19; Lamar Am. Compl., Dkt. 13). Reagan and Lamar assert their claims based on the Sign Code in effect at the time that the City denied their permit
applications. (See Reagan Am. Compl., Dkt. 19, at 2;
Lamar Am. Compl., Dkt. 13, at 2). The City revised Chapter 25-10 on August 17, 2017, after all of Plaintiffs’
1

Any finding of fact that should be construed as a conclusion
of law is so adopted. Any conclusion of law that should be construed as a finding of fact is so adopted.

32a
applications were denied. (See Ord. No. 20170817072,
Dkt. 37-20).
Reagan and Lamar assert that the distinction between on- and off-premises signs in the Austin Sign
Code is an unconstitutional content-based restriction
of speech, both facially and as applied to Reagan and
Lamar. (Reagan Am. Compl., Dkt. 19, at 7; Lamar Am.
Compl., Dkt. 13, at 5). They seek a declaratory judgment that Chapter 25-10, or any relevant part of that
chapter, is an unconstitutional content-based regulation of speech; that it is invalid and unenforceable on
its face; that it is invalid as applied to Regan and Lamar; and that Reagan and Lamar are “allowed to convert [their] outdoor advertising signs to digital copy
without having permits issued.” (Id. (citing Tex. Civ.
Prac. & Rem. Code § 37.003, 37.004)).
II.

FINDINGS OF FACT
A.

Stipulated Facts

The parties stipulated to the following facts, which
are not contradicted anywhere in the record. (Am. Stip.
Facts, Dkt. 26). Although the parties submitted separate proposed findings of fact that feature slightly different wording, (see Dkts. 27, 29), they are identical in
substance. The Court therefore adopts the Joint Proposed Amended Stipulated Facts as its own findings.2

2

Unless specified otherwise, all references to the Sign Code
pertain to the version of the Sign Code in effect at the time that

33a
Plaintiffs Reagan and Lamar are companies in the
business of outdoor advertising, which includes ownership and operation of billboards throughout the City of
Austin and surrounding area. (Am. Stip. Facts, Dkt. 26,
TT 2-3, 6).
Chapter 25-10 of the Austin Sign Code distinguishes between “on-premise” signs and “off-premise”
signs. Under the Sign Code in effect at the time of
Plaintiffs’ applications, a sign is an “off-premise” sign
if it advertises something not located where the sign is
installed or directs people to any location other than
the site of the sign itself. Section 25-10-3(11) (current
version at Section 25-10-4(9)). Billboards are off-premises signs. (Am. Stip. Facts, Dkt. 26, ¶ 9). The Sign Code
allows construction of new on-premises signs but prohibits new off-premises signs. (Id. ¶ 10). Existing offpremises signs are deemed “nonconforming signs,”
which were lawful when installed but no longer comply
with the current Sign Code. (Id. ¶¶ 10-11); see Section
25-10-3(10). The Sign Code prohibits changes to “nonconforming signs,” including existing off-premises signs.
(Id. ¶ 10).
The Sign Code allows digital sign-faces for onpremises signs but prohibits digital sign-faces for offpremises signs. (Id. ¶ 12); see Section 25-10-102(6)
(allowing electronically controlled changeable copy
signs for on-premises signs); Section 25-10-152(B)(2)(b)

Reagan and Lamar applied for their permits, which is offered as
Joint Exhibit J-1. (See Sign Code, Dkt. 19-5).

34a
(prohibiting any “change in the method of technology
used to convey a message” on a non-conforming sign).
The City’s stated general purpose in adopting the
Sign Code, including the sign regulations at issue in
this lawsuit, is to protect the aesthetic value of the city
and to protect public safety. (Id. ¶ 13).
On April 17, 2017, Reagan submitted 50 permit
applications to install digital sign-faces on existing
sign structures. (Id. ¶ 14). The next month, the City
of Austin denied all 50 of Reagan’s applications. (Id.
¶ 16). Reagan then submitted another 11 permit applications to install digital sign-faces on existing sign
structures in June. (Id. ¶ 17). In July, the City of Austin
once again denied all 11 of Reagan’s applications. (Id.
¶ 18). In the denial letters, the City stated that “[t]hese
applications cannot be approved under Section 25-10152 (Nonconforming Signs) because they would change
the existing technology used to convey off-premise
commercial messages and increase the degree of nonconformity with current regulations relating to offpremise signs.” (First Regan Denial Letter, Dkt. 36-2,
at 1 (“Ex. J-4”); Second Reagan Denial Letter, Dkt. 363, at 68 (“Ex. J-7”)).
On June 29, 2017, Lamar submitted 23 permit applications to install digital sign-faces on existing sign
structures. (Am. Stip. Facts, Dkt. 26, ¶ 21). In August,
the City of Austin denied all of Lamar’s applications.
(Id. ¶ 22). In its denial letter to Lamar, the City stated
that “[t]hese applications cannot be approved under
Section 25-10-152 . . . [and] the longstanding prohibition

35a
codified in Section 25-10-102 (Signs Prohibited in All
Sign Districts),” which prohibits off-premises signs
that are not authorized under any other provision of
the Sign Code. (Lamar Denial Letter, Dkt. 36-4, at 68
(“Ex. J-9”)). Reagan and Lamar have submitted into
evidence a complete list of the subject properties for
which the City denied permits to install digital signfaces. (Ex. A, Dkt. 26-1; Ex. B, Dkt. 26-2).
The parties also stipulate that the City amended
Chapter 25-10 on August 17, 2017, after the City denied all of Reagan and Lamar’s permit applications.
(Am. Stip. Facts, Dkt. 26, ¶ 27; see Ordinance No.
20170817-072, Dkt. 36-11, at 4-20; Section 25-10 (as
amended 2017), Dkt. 36-12, at 1-33).
B.

Additional Findings of Fact

The Court also finds the following additional facts,
which were undisputed and submitted during and after the bench trial. First, the amendments to the City
Code did not alter Section 25-10-152, which prohibits
new digital sign-faces for billboards. Section 25-10152(B)(2)(b) (current version at Section 25-10-152(B)(2)(b)
(2017)).3 However, the amendments did change the
definition of an “off-premise” sign. The old Sign Code
in effect at the time of Reagan and Lamar’s applications provides that an off-premises sign is “a sign
3

(See also City Post-Trial Br., Dkt. 37, at 2). Reagan and Lamar did not dispute this fact in their response, (see Pls.’ Resp.,
Dkt. 42), and the text of the two versions of the Sign Code are
identical

36a
advertising a business, person, activity, goods, products, or services not located on the site where the sign
is installed, or that directs persons to any location not
on that site.” Section 25-10-3(11) (current version at
Section 25-10-4(9) (2017)). The new Sign Code provides that an off-premises sign is “a sign that displays
any message directing attention to a business . . . activity, events, person, institution, or other commercial
message which is generally conducted . . . or occurs
elsewhere than on the premises where the sign is located . . . ” Section 25-10-4(9) (2017).
III.

CONCLUSIONS OF LAW

Reagan and Lamar argue that the distinction between on-premises and off-premises signs in the Austin Sign Code is an unconstitutional content-based
restriction of speech because it “treats on-premise and
off-premise signs differently and defines them in such
a way that requires one to read the sign to determine
which kind of sign it is and what ordinances apply.”
(Pls.’ Br., Dkt. 25, at 2).4 They contend that “[i]f the Sign
Code must be read to determine what ordinances

4

In their respective Complaints and joint trial brief, Reagan
and Lamar specifically identify the following provisions: Section
25-10-3 (defining a non-conforming sign); Section 25-10-3(11) (defining an off-site sign); Section 25-10-102(6) (allowing electronically controlled changeable copy signs only for on-premises signs),
Section 25-10-152(B)(2)(b) (prohibiting any “change in the method
of technology used to convey a message” on a non-conforming
sign). (See Reagan Am. Compl., Dkt. 19, at 3; Lamar Am. Compl.,
Dkt. 13, at 3; Pls.’ Br., Dkt. 25, at 11).

37a
apply,” it is not content-neutral and therefore subject
to strict scrutiny. (Id.).
Before reaching the merits of Reagan and Lamar’s
claim, the Court must consider two preliminary questions. Now that the City has amended parts of the Sign
Code, is this lawsuit moot? And if their claim is otherwise moot, do Plaintiffs have a vested right to have
their applications considered under the Sign Code in
effect at the time that they applied?
A.

Mootness

Sua sponte, the Court recognized and raised the
possibility of mootness during the bench trial. The parties submitted argument at trial and post-trial briefing
on this question. (Dkts. 37, 38, 40, 41, 42).5
If a court determines at any time that it lacks subject matter jurisdiction, the court must dismiss the
5

The Court also notes the parties’ submissions on the related
case, Reagan National Advertising of Austin, Inc. v. City of Cedar
Park, No. 1:17-CV-717-SS (W.D. Tex. filed July 31, 2017) (“the
Cedar Park case”). In that case, the Court granted summary judgment in favor of Cedar Park, (id., Dkt. 37), but then vacated that
judgment because Court’s ruling rested on the conclusion that
Reagan lacked standing to challenge the Sign Code’s regulation
of noncommercial speech, but the Court had not given Reagan notice and opportunity to respond to the issue of standing, (id., Dkt.
42). The Court will issue a revised summary judgment order taking into account the additional evidence that Reagan does publish
some noncommercial speech. (Id.). In this case, plaintiffs have already submitted evidence that they publish some noncommercial
speech. (See Ex. J-10, Dkt. 36-4). The Court does not require any
further briefing or evidence on this issue.

38a
action. Fed. R. Civ. P. 12(h)(3). A case is properly dismissed for lack of subject matter jurisdiction when the
court lacks “the statutory or constitutional power to
adjudicate the case.” Home Builders Ass’n of Miss., Inc.
v. City of Madison, Miss., 143 F.3d 1006, 1010 (5th Cir.
1998). The trial court is “free to weigh the evidence and
satisfy itself ” that subject matter jurisdiction exists.
MDPhysicians & Assocs., Inc. v. State Bd. Of Ins., 957
F.2d 178, 181 (5th Cir. 1992) (quoting Williamson v.
Tucker, 645 F.2d 404, 413 (5th Cir. 1981)).
“A case becomes moot—and therefore no longer a
‘Case’ or ‘Controversy’ for purposes of Article III—
‘when the issues presented are no longer ‘live’ or the
parties lack a legally cognizable interest in the outcome.’ ” Fontenot v. McCraw, 777 F.3d 741, 747 (5th Cir.
2015) (quoting Murphy v. Hunt, 455 U.S. 478, 481
(1982)). “No matter how vehemently the parties continue to dispute the lawfulness of the conduct that precipitated the lawsuit, the case is moot if the dispute ‘is
no longer embedded in any actual controversy about
the plaintiffs’ particular legal rights.’ ” Already, LLC v.
Nike, Inc., 568 U.S. 85, 91 (2013) (quoting Alvarez v.
Smith, 558 U.S. 87, 93 (2009)). “[T]he fact that a challenged law is amended does not alone moot the underlying claim unless the law has been sufficiently altered
so as to present a substantially different controversy.”
Peru v. Texas, 970 F. Supp. 2d 593, 602 (W.D. Tex. 2013)
(citing Ne. Fla. Chapter of the Assoc. Gen. Contractors
of Am. v. City of Jacksonville, 508 U.S. 656, 662 & n.3
(1993)).

39a
In this case, the 2017 amendments to the Sign
Code change the definition of an “off-premise” sign, potentially but not necessarily altering the types of signs
that will be covered as off-premises. For example, the
old Sign Code in effect at the time of Reagan and Lamar’s applications defines an off-premises sign as “a
sign advertising a business, person, activity, goods,
products, or service . . . ” while the new definition is “a
sign that displays any message directing attention to a
business . . . activity, events, person, institution, or
other commercial message.” Section 25-10-3(11) (current version at Section 25-10-4(9) (2017)). However, the
amendments do not alter the prohibition against new
digital sign-faces for billboards. See Section 25-10152(B)(2)(b) (current version at Section 25-10-152(B)(2)(b)
(2017)). Moreover, the amendments do not change
Reagan and Lamar’s claim in this suit: that if a person
must read a sign to determine which regulation applies—the on-premises provision or the off-premises
provision—then that the regulation is content-based
and subject to strict scrutiny. (Reagan Am. Compl.,
Dkt. 19, at 4-5; see also Lamar Am. Compl., Dkt. 13, at
3 (“The only way to determine whether a sign is an onpremise or off-premise sign is to consider the content
of the sign and determine whether that content is sufficiently related to the business or service offered on
the sign site.”)). This is the sole basis of their challenge
to the Sign Code. Because the amendments do not
change the question before the Court, the Sign Code
has not been “sufficiently altered so as to present a
substantially different controversy.” See Perez, 970
F. Supp. 2d at 602 (citing Ne. Fla. Chapter, 508 U.S. at

40a
662 & n.3). Reagan and Lamar’s claims are not moot.
The Court therefore does not reach the question of
whether Reagan and Lamar have vested rights in the
consideration of their applications under the Sign
Code in effect at the time that they applied.
B.

The Merits

The Court now turns to the central question in
this case. Reagan and Lamar ask the Court to find that
the on/off premises distinction in the Sign Code in effect at the time that the City denied their permits is an
unconstitutional content-based restriction of speech, facially and as applied to them. Specifically, they contend
that Reed v. Town of Gilbert, Ark., 135 S. Ct. 2218
(2015) “altered the analysis” for regulations that distinguish between on- and off-premises signs. (Pls.’ Br.,
Dkt. 25, at 3). Reagan and Lamar argue that under
Reed, the Sign Code’s different rules for on- and offpremises signs are content-based and therefore subject
to strict scrutiny. (Id.). The City counters that the
on/off-premises distinction only regulates the location
of signs, not their content, and that Reed did not address the standard for on/off-premises distinctions at
all. (City Br., Dkt. 30, at 4).
1.

Standard of Review

The parties agree that before Reed, regulations
distinguishing between on- and off-premises signs
were subject to intermediate scrutiny, not strict scrutiny. See Metromedia, Inc. v. City of San Diego, 453 U.S.

41a
490, 507 (1981). The Court considers Metromedia and
Reed in turn.
a. The Decision in Metromedia
In Metromedia, the city of San Diego prohibited
off-premises “outdoor advertising display signs,” with
exceptions for twelve specific sign categories, such as
bus stop signs, “religious symbols,” and temporary political campaign signs. Id. at 502. In effect, San Diego
prohibited all off-premises commercial signs but allowed on-premises commercial signs. Id. at 503. For
non-commercial signs, San Diego prohibited all signs
other than the twelve excepted categories. Id. Regarding the commercial sign regulations, the Supreme
Court applied intermediate scrutiny: “(1) The First
Amendment protects commercial speech only if that
speech concerns lawful activity and is not misleading.
A restriction on otherwise protected commercial
speech is valid only if it (2) seeks to implement a substantial governmental interest, (3) directly advances
that interest, and (4) reaches no further than necessary to accomplish the given objective.” Id. at 507 (citing Central Hudson Gas & Electric Corp. v. Public
Service Comm’n, 447 U.S. 557, at 563-66 (1980)). Applying that intermediate scrutiny test, the Supreme
Court upheld different rules for on-premises and offpremises commercial signs: “offsite commercial billboards may be prohibited while onsite commercial

42a
billboards are permitted.” Id. at 512.6 However, the
Court added: “[i]nsofar as the city tolerates billboards
at all, it cannot choose to limit their content to commercial messages; the city may not conclude that the
communication of commercial information concerning
goods and services connected with a particular site is
of greater value than the communication of noncommercial messages.” Id. at 513.7 As the Fifth Circuit has
summarized: “Metromedia established three key propositions. It held that (1) a billboard ordinance may
6

The Court explained: “There can be little controversy over
the application of the first, second, and fourth criteria. There is
no suggestion that the commercial advertising at issue here involves unlawful activity or is misleading. Nor can there be substantial doubt that the twin goals that the ordinance seeks to
further—traffic safety and the appearance of the city—are substantial governmental goals. . . . If the city has a sufficient basis
for believing that billboards are traffic hazards and are unattractive, then obviously the most direct and perhaps the only effective
approach to solving the problems they create is to prohibit them.
The city has gone no further than necessary in seeking to meet its
ends. Indeed, it has stopped short of fully accomplishing its ends:
It has not prohibited all billboards, but allows onsite advertising
and some other specifically exempted signs.” Metromedia, 453
U.S. at 507-08 (internal citations and quotation marks omitted).
Regarding the third criterion—whether the regulation “directly
advances” governmental interests in traffic safety and the city’s
aesthetic appearance—the Court deferred to the subjective judgment of local lawmakers in the absence of any claim that San Diego had “as an ulterior motive the suppression of speech.” Id. at
510.
7
Metromedia concluded that the San Diego regulations were
unconstitutional because they “favor[ed] certain kinds of messages—such as onsite commercial advertising, and temporary political campaign advertisements—over others,” based on their
content, with a complete bar on most non-commercial signs.
Metromedia, 435 U.S. at 519.

43a
permit on-premise commercial advertisement while
banning off-premise commercial advertisement; (2) the
ordinance may not distinguish among non-commercial
messages on the basis of their content; and (3) where a
city permits commercial billboards, it must also permit
non-commercial ones.” RTM Media, LLC v. City of Houston, 584 F.3d 220, 225 (5th Cir. 2009).
b. The Decision in Reed
The City of Austin contends that Metromedia continues to apply. (City Br., Dkt. 30, at 5-6). Reagan and
Lamar argue that Reed “change[d] the landscape applicable to the on-premise/off premise distinction and
specifically requires strict scrutiny to apply where ordinances are not content-neutral.” (Pls.’ Br., Dkt. 25, at
3).
Reagan and Lamar are only correct in part. Reed
did state that strict scrutiny applies to content-based
speech regulations, and that courts must consider
whether a facially neutral regulation is nonetheless
content-based based on the law’s “purpose and justification.” Reed, 135 S. Ct. at 2227-28. But Reed did not
change the First Amendment analysis for on/off premises distinctions.
First, Reed did not change the test for contentbased speech. Rather, Reed recites the familiar standard. Under the First Amendment, the government “has
no power to restrict expression because of its message,
its ideas, its subject matter, or its content.” Id. at 2226
(quoting Police Dept. of Chicago v. Mosley, 408 U.S. 92,

44a
95 (1972)). “Content-based laws—those that target
speech based on its communicative content—are presumptively unconstitutional and may be justified only
if the government proves that they are narrowly tailored to serve compelling state interests.” Id. (citing
R.A.V. v. St. Paul, 505 U.S. 377, 395 (1992) and Simon
& Schuster, Inc. v. Members of N.Y. State Crime Victims
Bd., 502 U.S. 105, 115, 118 (1991)). “Government regulation of speech is content based if a law applies to particular speech because of the topic discussed or the
idea or message expressed.” Id. (citing Sorrell v. IMS
Health, Inc., 564 U.S. 552, 564 (2011) (holding that a
regulation permitting “educational communications”
but restricting disclosure for marketing purposes was
content-based “on its face”); Carey v. Brown, 447 U.S.
455, 462 (1980) (holding that a regulation distinguishing between peaceful labor picketing and other peaceful picketing was content-based); Mosley, 408 U.S. at 95
(same)).
Reed affirmed that the phrase “content based” has
a “commonsense meaning” that “requires a court to
consider whether a regulation of speech ‘on its face’
draws distinctions based on the message a speaker
conveys.” Id. (citing Sorrell, 564 U.S. at 565). While
“[s]ome facial distinctions based on a message are obvious, defining regulated speech by particular subject
matter . . . others are more subtle, defining regulated
speech by its function or purpose.” Id. Finally, some
laws that are “facially content neutral” are nonetheless
content based if they “cannot be justified without reference to the content of the regulated speech,” or if the

45a
government adopted them “because of disagreement
with the message the speech conveys.” Id. (citing Ward
v. Rock Against Racism, 491 U.S. 781, 791 (1989))
(cleaned up). All content-based speech regulations are
subject to strict scrutiny. Id.
In Reed, the Supreme Court applied this framework to the sign code in Gilbert, Arizona, which prohibited the display of outdoor signs anywhere without
a permit, with special exemptions for 23 categories of
signs. Id. at 2224. Exempt sign categories included
“Ideological Signs,” “Political Signs,” and “Temporary
Directional Signs Relating to a Qualifying Event.” Id.
Each category was subject to different regulations for
size, location, and duration of display. The Gilbert sign
code treated ideological signs “most favorably,” allowing them the largest display size, permission to be
placed in all zoning areas, and unlimited display time.
Id. When a local church posted signs for Sunday services beyond the time limit for “Temporary Directional
Signs Relating to a Qualifying Event,” town officials issued repeated citations, and the church filed suit. Id.
at 2225-26.
Reed emphasized that “[b]ecause strict scrutiny
applies either when a law is content based on its face
or when the purpose and justification for the law are
content based, a court must evaluate each question before it concludes that the law is content neutral and
thus subject to a lower level of scrutiny.” Id. at 2228.
“[A] speech regulation targeted at specific subject matter is content based even if it does not discriminate
among viewpoints within that subject matter.” Id. at

46a
2230. Thus, although the Gilbert sign code did not discriminate, for example, between different political
viewpoints subject to the “Political Signs” category, the
sign code did “single out specific subject matter for differential treatment” by adopting different regulations
for political messages, ideological messages, and messages about events. See id. (“Ideological messages are
given more favorable treatment than messages concerning a political candidate, which are themselves
given more favorable treatment than messages announcing an assembly of like-minded individuals. That
is a paradigmatic example of content-based discrimination.”). Applying strict scrutiny, the Reed Court concluded that the Gilbert sign code was not narrowly
tailored to achieve a compelling interest. Id. at 2231
(citing Arizona Free Enter. Club’s Freedom Club PAC v.
Bennett, 564 U.S. 721, 734 (2011)).
Here, Reagan and Lamar argue that if a viewer
must “read the sign . . . just to determine what rules
apply, then the regulation is content based under
Reed.” (Pls.’ Post-Trial Br., Dkt. 38, at 1). They submit
that the City of Austin Sign Code is content based because the regulations “require the City to look at the
content of the sign to determine whether it is an onpremise or off-premise sign,” to see if digital sign-faces
are permitted. (Pls.’ Br., Dkt. 25, at 10-11). They argue
that “the location of the structure itself is not what determines what rules apply. Rather, the content of the
sign determines what rules apply.” (Pls.’ Post-Trial Br.,
Dkt. 38, at 2). “Does the content advertise something
at that location? If so, then the on-premise rules apply.

47a
Does th[e] content advertise something not at that location? If so, then the off-premise rules apply.” (Id.).
Reagan and Lamar are urging an interpretation of
Reed that no court in this circuit has adopted.8 On their
reading, regulations governing stop signs are content
based because they must be read to determine its governing provision under the Sign Code. On this view,
regulations imposing greater restrictions for commercial
8

Courts in our circuit have not yet ruled on this question.
Reagan and Lamar offer one supporting authority, which is not
binding on this Court. See Thomas v. Schroer, 248 F. Supp. 3d
868, 880 (W.D. Tenn. 2017), reconsideration denied, No. 13-CV02987-JPM-CGC, 2017 WL 6489144 (W.D. Tenn. Sept. 20, 2017)
(“Even though the on-premises/off-premises distinction appears
facially content neutral, it ultimately cannot be justified without
reference to the content of the regulated speech and thus is a content-based regulation.”) (cleaned up). Moreover, as the City notes,
Thomas case concerned regulations that only restricted noncommercial speech. (City Trial Br., Dkt. 30, at 5). Outside of the Fifth
Circuit, an overwhelming majority of courts have rejected the construction of Reed that Reagan and Lamar propose. See Act Now
to Stop War and End Racism Coal. and Muslim Am. Soc.”), Freedom Found. v. District of Columbia, 846 F.3d 391 (D.C. Cir. 2017),
cert. denied sub nom., Muslim Am. Soc’y Freedom Found., 138
S. Ct. 334 (2017) (“cursory examination” does not render the statute facially content based); Contest Promotions, LLC v. City &
Cty. of San Francisco, 874 F.3d 597, 601 (9th Cir. 2017) (“We have
likewise rejected the notion that Reed altered Central Hudson’s
longstanding intermediate scrutiny framework [for commercial
speech].”) (citing Lone Star Sec. & Video, Inc. v. City of Los Angeles, 827 F.3d 1192, 1198 n.3 (9th Cir. 2016); Signs for Jesus v.
Town of Pembroke, 230 F. Supp. 3d 49, 60 (D.N.H. 2017) (holding
that absent evidence “suggesting that the Town applied the electronic sign ordinance unevenly in a way that suggests a content
preference,” restrictions on electronic signs were content-neutral
and subject to intermediate scrutiny).

48a
signs—a well-established and constitutional practice9—would be content-based because a viewer must
read a sign to determine if the message was commercial or non-commercial. In effect, Reagan and Lamar
urge a rule that would apply strict scrutiny to all regulations for signs with written text.
This Court declines to find that Reed quietly overruled Metromedia and Central Hudson without saying
so. In fact, Reed does not mention Metromedia at all.
Reed is entirely consistent with Metromedia. In Reed,
the Supreme Court struck down a regulation that compelled town officials to categorize the content of a
sign—for example, as “Ideological” or “Political”—in order to apply different rules for different subject matter.
Reed, 135 S. Ct. at 2230. In Metromedia, the Supreme
Court upheld the portion of the regulations that restricted off-premises billboards while permitting them
on-premises, so long as the city did not restrict noncommercial subject matter more than commercial subject matter. Metromedia, 453 U.S. at 512-13.
Finally, the only mention of on- or off-premises
signs in Reed appears in Justice Alito’s concurrence,
which states that the rules for on/off-premises distinctions would remain unchanged after Reed. “I will not
attempt to provide anything like a comprehensive list,
9

“[W]e continue to observe the distinction between commercial and noncommercial speech, indicating that the former could
be forbidden and regulated in situations where the latter could
not be.” Metromedia, 453 U.S. at 506 (citing Bates v. State Bar
of Ariz., 433 U.S. 350, 379-381, 383-384 (1977); Ohralik v. Ohio
State Bar Ass’n., 436 U.S. 447, 456 (1978)).

49a
but here are some rules that would not be content
based: . . . Rules distinguishing between on-premises
and off-premises signs.” Reed, 135 S. Ct. at 2233 (Alito,
J., concurring). Reed did not overrule or alter the analysis for on- and off-premises signs under Metromedia.
2.

The City of Austin Sign Code

The Court now considers the City of Austin Sign
Code. As detailed above, an off-premises sign is “a sign
advertising a business, person, activity, goods, products, or services not located on the site where the sign
is installed, or that directs persons to any location not
on that site.” Section 25-10-3(11) (current version at
Section 25-10-4(9) (2017)). The Sign Code allows digital sign-faces for on-premises signs but prohibits digital sign-faces for off-premises signs. See Section 25-10102(6) (allowing electronically controlled changeable
copy signs for on-premises signs); Section 25-10152(B)(2)(b) (current version at Section 25-10-152(B)(2)(b)
(2017) (prohibiting any “change in the method of technology used to convey a message” on a non-conforming
sign).
Reed directs courts to evaluate whether a regulation is facially content based and whether the “purpose
and justification for the law are content based” before
a court may “conclude that the law is content neutral
and thus subject to a lower level of scrutiny.” 135 S. Ct.
at 2228. First, a court must consider whether the law
is content-neutral on its face. Id. Here, the Court agrees
with the City that the Sign Code’s on/off premises

50a
distinction is facially neutral because it “do[es] not ban
or otherwise curtail discussion of any specific topics,
ideas or viewpoints.” (City Br., Dkt. 30, at 5). For example, the on/off premises distinction in the Sign Code
does not impose greater restrictions for political messages, religious messages, or any other subject matter,
as the impermissible regulation did in Reed. See Reed,
135 S. Ct. at 2230. The Sign Code does not require a
viewer to evaluate the topic, idea, or viewpoint on the
sign in order to determine which provision applies. It
only requires a viewer to determine whether the subject matter is located on the same property as the sign,
or on a different property. This is a regulation based on
location, not “based on the message a speaker conveys.”
Id. at 2227 (citing Sorrell, 564 U.S. at 565).
Second, the City’s stated “purpose and justification” is to “protect the aesthetic value of the City and
to protect public safety.” (City Br., Dkt. 30, at 6). Applied without bias to different messages or speakers,
community aesthetics and public safety are indeed
content neutral grounds. There is no evidence in the
record that the City of Austin has applied these
grounds differently for different messages or speakers,
or that these grounds are pretext for any other purpose. The Court concludes that the Sign Code’s on/off
premises distinction is content neutral both facially
and in its purpose and justification.
Because the Sign Code’s on/off-premises distinction is content-neutral, the Court applies the
intermediate scrutiny standard for commercial speech
restrictions from Metromedia and Central Hudson.

51a
Neither party disputes the first requirement: the regulated speech “concerns lawful activity and is not misleading.” See Metromedia, 453 U.S. at 507 (citing
Central Hudson, 447 U.S. at 563). For the second requirement, the City of Austin submits that the distinction for on/off-premises signs is intended to “protect
the aesthetic value of the City and to protect public
safety.” (City Br., Dkt. 30, at 6). Reagan and Lamar argue that “no compelling interest is being served, nor
can the regulation be narrowly tailored to achieve that
interest.” (Pls.’ Br., Dkt. 25, at 12). But Metromedia directly contradicts Reagan and Lamar: “Nor can there
be substantial doubt that the twin goals that the ordinance seeks to further—traffic safety and the appearance of the city—are substantial governmental goals.”
Metromedia, 453 U.S. at 507-08. On the third requirement, that a regulation must “directly advance” a government’s substantial interest, the Supreme Court
further stated that courts should “hesitate to disagree
with the accumulated, common-sense judgments of
local lawmakers . . . that billboards are real and substantial hazards to traffic safety.” Id. at 509. “Such
[a]esthetic judgments are necessarily subjective, defying objective evaluation, and for that reason must be
carefully scrutinized to determine if they are only a
public rationalization of an impermissible purpose.”
Id. at 510. And here, as in Metromedia, there is no
claim that the City of Austin “has as an ulterior motive
the suppression of speech.” Id.10 Finally, the fourth
10

Reagan and Lamar assert in their post-trial briefing that
the City’s true purpose is to “reduce or eliminate billboards,” (Pls.

52a
requirement mandates that the City’s regulation
“reaches no further than necessary to accomplish the
given objective.” Id. at 507. The facts in this case again
parallel Metromedia: “The city has gone no further
than necessary in seeking to meet its ends. Indeed, it
has stopped short of fully accomplishing its ends: It has
not prohibited all billboards, but allows onsite [billboards]. . . .” Id. at 508; see also RIM Media, 584 F.3d
at 224 n.5. No further showing is required.
Finally, the Court notes that the Sign Code satisfies the corollary rules in Metromedia for noncommercial speech. An ordinance “may not distinguish among
non-commercial messages on the basis of their content,” and “where a city permits commercial billboards,
it must also permit noncommercial ones.” RTM Media,
584 F.3d at 225 (citing Metromedia, 453 U.S. at 513).
Here, there is no evidence in the record that the Sign
Code distinguished among non-commercial messages
based on their content or that the City prohibited noncommercial billboards.11

Post-Trial Br., Dkt. 38, a 7), but Metromedia expressly permits
the reduction of billboards so long as the relevant regulations satisfy the requirements of the First Amendment. Further, there is
no evidence before the Court that the City is in fact seeking to
“eliminate” billboards.
11
In fact, Reagan and Lamar provided exhibits with images
of their own non-commercial billboards displayed in Austin, including signs promoting a ballot initiative, a non-profit children’s
advocacy organization, and a public art display. (See Ex. J-10,
Dkt. 36-4).

53a
The Court concludes that the distinction between
on-premises and off-premises signs in the City of Austin Sign Code satisfies intermediate scrutiny.
IV.

CONCLUSION

For the reasons given herein, IT IS ORDERED
that Reagan and Lamar’s request for declaratory
judgment that the City of Austin Sign Code is an unconstitutional content-based regulation of speech is
DENIED.
IT IS FURTHER ORDERED that Reagan and
Lamar’s request for declaratory judgment that the
City of Austin Sign Code is invalid and unenforceable
is DENIED.
IT IS FINALLY ORDERED that Reagan and Lamar’s request for declaratory judgment allowing them
to install digital sign-faces without approved permits
from the City is DENIED.
SIGNED on March 27, 2019.
/s/ Robert Pitman
ROBERT PITMAN
UNITED STATES
DISTRICT JUDGE

54a
CHAPTER 25-10. – SIGN REGULATIONS.
§ 25-10-1 – APPLICABILITY.
(A) Except as otherwise provided in this section, this
chapter applies to a sign that is:
(1) located in the planning jurisdiction;
(2) visible from a street right-of-way; and
(3) used for advertising
....
§ 25-10-2 – COMPLIANCE REQUIRED.
(A) A person may not install, move, structurally alter,
structurally repair, maintain, or use a sign except
in accordance with the provisions of this chapter
and other applicable Code provisions.
....
§ 25-10-3 – DEFINITIONS
In this chapter:
....
(10) NONCONFORMING SIGN means a sign that
was lawfully installed at its current location
but does not comply with the requirements of
this chapter
(11) OFF-PREMISE SIGN means a sign advertising a business, person, activity, goods, products, or services not located on the site where
the sign is installed, or that directs persons to
any location not on that site.

55a
....
§ 25-10-21 – ENFORCEMENT AND IMPLEMENTATION.
The building official shall:
(1) enforce and implement this chapter;
(2) issue permits and collect fees required by this
chapter[.]
....
§ 25-10-102 – SIGNS PROHIBITED IN ALL SIGN
DISTRICTS.
Unless the building official determines that the
sign is a nonconforming sign, the following signs are
prohibited:
(1) an off-premise sign, unless the sign is authorized by another provision of this chapter;
....
(6) a sign that uses an intermittent or flashing
light source to attract attention, excluding
an electronically controlled changeable-copy
sign[.]
....
§ 25-10-152 – NONCONFORMING SIGNS.
(A) A person may continue or maintain a nonconforming sign at its existing location.
(B) A person may not change or alter a nonconforming
sign except as provided in this subsection.

56a
(1) The face of the sign may be changed.
(2) The sign may be changed or altered if the
change or alteration does not:
(a) increase the degree of the existing nonconformity;
(b) change the method or technology used to
convey a message; or
(c) increase the illumination of the sign.
....
(F) This subsection applies to an off-premise sign.
(1) This paragraph prescribes registration and
identification requirements.
(a) The owner of the sign must register the
sign every year with the director.
(b) The sign owner shall, on a form prescribed by the director, provide:
(i)

information regarding the sign location, height, size, construction type,
materials, setback from property boundaries, and illumination; and

(ii) the name and address of the sign
owner.
(c) The sign owner shall initially register the
sign by August 31, 1999, or within 180
days after the date the sign becomes subject to the City’s planning jurisdiction, as
applicable, and shall pay a registration
fee set by separate ordinance.

57a
(d) A person who fails to register a sign as
required by this paragraph commits an
offense.
(e) A sign owner is prohibited from relocating a sign if the sign owner is in violation
of the registration requirements for any
sign owned by that sign owner within the
City’s jurisdiction.
(f ) The sign owner shall place identifying
markers on the sign as required by the director. Such markers shall include, but
not be limited to, the applicable registration number and measurement points to
assist in verifying the height of a sign.
(g) A sign owner shall, in a manner prescribed by the director, provide an annual
inventory of all signs owned by that sign
owner, including but not limited to a description of the sign, the location of the
sign, and the owner of the property on
which the sign is located.
(h) The building official shall notify the property owner of the pending expiration of a
sign registration, no earlier than 90 days
and no later than 30 days prior to the expiration. The director shall provide the
same notice to the sign owner if the inventory required under subsection (f ) has
been provided.
....

58a
§ 25-10-231 – REGISTRATION REQUIRED.
(A) Except as provided in this section, a person may
not install, move, structurally alter, structurally
repair, or maintain a sign unless the person is registered with the building official in accordance
with this article.
....
§ 25-10-233 – PREREQUISITES; EXPIRATION;
NONTRANSFERABLE.
....
B) Registration expires on December 31 of each calendar year.
C) Registration under this article is not transferable.

59a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
REAGAN NATIONAL
ADVERTISING OF
AUSTIN, INC., and
LAMAR ADVANTAGE
HOLDING COMPANY,
Plaintiffs,
v.
CITY OF AUSTIN,
Defendant.

§
§
§
§
§
§
§
§
§
§
§

1:17-CV-673-RP

AMENDED JOINT STIPULATION
OF FACT AND EVIDENCE
(Filed Jun. 5, 2018)
The parties submit these amended stipulations, to
modify those that were previously submitted in accordance with paragraph 4 of the Scheduling Order that
was entered by the Court on January 29, 2018.
I.

FACTS

A. Background
1.

Jurisdiction and venue are proper in this
Court.

2.

Plaintiff Reagan National Advertising of Austin, Inc. d/b/a Reagan National Advertising
(“Reagan”) is a Delaware corporation doing

60a
business in Austin, Travis County, Texas, and
the surrounding areas.
3.

Intervenor Lamar Advantage Outdoor Company, L.P. (“Lamar”) is a Delaware limited
partnership doing business in Austin, Travis
County, Texas and the surrounding areas.

4.

The City of Austin, Texas (“City”) is a homerule municipality located in Travis, Hays, and
Williamson Counties.

5.

The City does not have sovereign immunity,
either immunity from suit or from liability, in
this case.

6.

Reagan and Lamar are in the business of outdoor advertising, which includes the ownership and operation of billboards. Reagan and
Lamar engage in outdoor advertising within
the City of Austin and in the surrounding areas.

7.

Reagan and Lamar have standing to bring
this suit.

B. The City’s Sign Code
8.

The City regulates off-premise signs in Chapter 25-10 of the Austin City Code (“Sign
Code”).

9.

Billboards are off-premise signs.

10. The Sign Code allows new on-premise signs
to be built, but new off-premise signs are
prohibited and existing off-premise signs are

61a
deemed to be nonconforming signs that are
not allowed to change.
11. Non-conforming signs are those that were
lawful when installed but that do not comply
with the Sign Code.
12. The Sign Code allows digital sign faces to be
used for on-premise signs, but digital sign
faces are prohibited on off-premise signs.
See e.g., Section 25-10-102(6) (allowing electronically controlled changeable copy signs
for on-premise signs) and Section 25-10152(B)(2)(b) (disallowing a change in the
method of technology used to convey a message on a non-conforming sign).
13. The City’s stated general purpose in adopting
its sign regulations, including the sign regulations at issue in this lawsuit, is to protect the
aesthetic value of the city and to protect public safety.
C. Reagan’s Applications
14. On or about April 17, 2017, Reagan submitted
fifty1 permit applications, along with the required fees, to the City for installation of digital sign faces on existing sign structures.
15. Forty-three addresses applied for on April 17,
2017, were applications for permits for conversion of existing signs to digital copy. In
1

Reagan’s First Amended Complaint says forty-nine applications were submitted. That was an error. In fact, fifty were submitted

62a
seven2 instances, the existing sign structures
are currently electronically controlled changeable copy signs, as they are tri-vision signs.
16. On May 25, 2017 the City denied all fifty permit applications.
17. Additionally, on or about June 7, 2017, Reagan
submitted another eleven permit applications, along with the required fees, to the City
for installation of digital sign faces on existing
sign structures.
18. On July 20, 2017 the City denied all eleven
permit applications.
19. The addresses of Reagan’s sign structures
that were the subject of its sixty-one permit
applications are listed in the attached Exhibit A.
20. The version of Chapter 25-10 of the Austin
City Code (“Sign Code”) that is stipulated to
as Exhibit J-1 was in effect at all times relevant to the applications submitted by Reagan.
D. Lamar’s Applications
21. On or about June 29, 2017, Lamar submitted
twenty-three permit applications, along with
the required fees, to the City for installation
of digital sign faces on existing sign structures.

2

Reagan’s First Amended Complaint says six. That was an
error. In fact, seven were tri-vision signs.

63a
22. On or about August 10, 2017, the City denied
all twenty-three permit applications.
23. The addresses of Lamar’s Sign structures that
were the subject of its twenty-three permit applications are listed in the attached Exhibit
B.
24. The version of Chapter 25-10 of the Austin
City Code that is stipulated to as Exhibit J-1
was in effect at all times relevant to the applications submitted by Lamar.
E. Photographs of Signs
25. Exhibit J-10 depicts exemplar signs of
Reagan’s billboards within the City of Austin
and in the surrounding areas.
26. Exhibit J-11 depicts exemplar signs of Lamar’s billboards within the City of Austin and
in the surrounding areas.
F.

Revisions to the Sign Code
27. Chapter 25-10 of the City Code was amended
on August 17, 2017, after all the Reagan and
Lamar permit applications were received and
denied by the City.

